Department of Health and Human Services
                     OFFICE OF 

                INSPECTOR GENERAL 





 MEDICARE COMPLIANCE REVIEW OF
UNIVERSITY OF WISCONSIN HOSPITAL
 AND CLINICS FOR CALENDAR YEARS
       2008 THROUGH 2010

    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov. 
                                            




                                                         Sheri L. Fulcher

                                                    Regional Inspector General 


                                                          September 2013

                                                          A-05-12-00030

                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                             Notices 



        THIS REPORT IS AVAILABLE TO THE PUBLIC
                  at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as 

 questionable, a recommendation for the disallowance of costs 

 incurred or claimed, and any other conclusions and 

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating 

 divisions will make final determination on these matters.

                                   EXECUTIVE SUMMARY 


University of Wisconsin Hospital and Clinics did not fully comply with Medicare requirements
for billing inpatient and outpatient services, resulting in net overpayments of approximately
$316,000 over 3 years.


WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and data analysis techniques, we identified hospital claims that are at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2011, Medicare
paid hospitals $151 billion, which represented 45 percent of all fee-for-service payments;
therefore, the Office of Inspector General must provide continual and adequate oversight of
Medicare payments to hospitals.

The objective of this review was to determine whether University of Wisconsin Hospital and
Clinics (the Hospital) complied with Medicare requirements for billing inpatient and outpatient
services on selected claims.

BACKGROUND

The Centers for Medicare & Medicaid Services (CMS) pays inpatient hospital costs at
predetermined rates for patient discharges. The rates vary according to the diagnosis-related
group (DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s
diagnosis. The DRG payment is, with certain exceptions, intended to be payment in full to the
hospital for all inpatient costs associated with the beneficiary’s stay. CMS pays for hospital
outpatient services on a rate-per-service basis that varies according to the assigned ambulatory
payment classification.

The Hospital is a nonprofit 566-bed academic medical center located in Madison, Wisconsin,
with 117 outpatient clinics located throughout Wisconsin. Medicare paid the Hospital
approximately $573 million for 28,525 inpatient and 584,270 outpatient claims for services
provided to beneficiaries during CYs 2008 through 2010 based on CMS’s National Claims
History data.

Our audit covered $3,086,985 in Medicare payments to the Hospital for 186 claims that we
judgmentally selected as potentially at risk for billing errors, consisting of 85 inpatient and 101
outpatient claims.

WHAT WE FOUND

The Hospital complied with Medicare billing requirements for 87 of the 186 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 99 claims, resulting in net overpayments of $316,172 for
CYs 2008 through 2010. Specifically, 51 inpatient claims had billing errors, resulting in net

Med icare Comp lian ce Review o f University o f Wiscon sin Ho spita l and Clin ic s
(A-05-12-00030 )                                                                                      i
overpayments of $179,056, and 48 outpatient claims had billing errors, resulting in net
overpayments of $137,116. These errors occurred primarily because the Hospital did not have
adequate controls to prevent the incorrect billing of Medicare claims within the selected risk
areas that contained errors.

WHAT WE RECOMMEND

We recommend that the Hospital:

   	 refund to the Medicare contractor $316,172, consisting of $179,056 in net overpayments
      for 51 incorrectly billed inpatient claims and $137,116 in net overpayments for 48
      incorrectly billed outpatient claims, and

   	 strengthen controls to ensure full compliance with Medicare requirements.

UNIVERSITY OF WISCONSIN HOSPITAL AND CLINICS COMMENTS AND OFFICE
OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the Hospital partially agreed with our first
recommendation and described actions that it has taken to address our second recommendation.
Specifically, the Hospital disagreed with our findings for 10 inpatient claims in which we stated
that the Hospital should have billed the claims as outpatient or outpatient with observation
services. In addition, for five outpatient claims billed with manufacturer credits for replaced
medical devices, the Hospital corrected the claims using modifier “FC” which is contrary to our
finding that modifier “FB” should be reported. The Hospital agreed with our findings and
recommendations for the remaining claims. After reviewing the Hospital’s comments, we
maintain that our findings and recommendations are valid.




Med icare Comp lian ce Review o f University o f Wiscon sin Ho spita l and Clin ic s
(A-05-12-00030 )                                                                                    ii
                                                    TABLE OF CONTENTS



INTRODUCTION .........................................................................................................................1 


       Why We Did This Review .....................................................................................................1 


      Objective ................................................................................................................................1 


      Background ............................................................................................................................1 

          The Medicare Program..................................................................................................1 

          Hospital Inpatient Prospective Payment System...........................................................1 

          Hospital Outpatient Prospective Payment System ........................................................1 

          Hospital Claims at Risk for Incorrect Billing................................................................2 

          Medicare Requirements for Hospital Claims and Payments .........................................3 

          University of Wisconsin Hospital and Clinics ..............................................................3 


      How We Conducted This Review ..........................................................................................3 


FINDINGS.....................................................................................................................................4 


      Billing Errors Associated With Inpatient Claims ...................................................................4 

            Incorrectly Billed as Inpatient .......................................................................................4 

            Incorrect Discharge Status.............................................................................................4 

            Manufacturer Credits for Replaced Medical Devices Not Reported ............................5 

            Unsupported Charges Resulting in Incorrect Outlier Payments ...................................5 

            Incorrect Source-of-Admission Code ............................................................................6 

            Incorrectly Billed Diagnosis-Related Group Code .......................................................6 


       Billing Errors Associated With Outpatient Claims................................................................6 

             Manufacturer Credits for Replaced Medical Devices Not Reported ............................6 

             Incorrectly Billed Healthcare Common Procedure Coding System Code ....................7 

             Incorrectly Billed Lupron Injections and an Insufficiently Supported Medication ......7 

             Incorrectly Billed Outpatient Services With Modifiers -59, -50, and -73.....................8 

             Unsupported Charges Resulting in Incorrect Outlier Payments ...................................8 

             Incorrectly Billed Evaluation and Management Services .............................................9 


RECOMMENDATIONS ...............................................................................................................9 


UNIVERSITY OF WISCONSIN HOSPITAL AND CLINICS COMMENTS ............................9 


OFFICE OF INSPECTOR GENERAL RESPONSE ..................................................................10 


APPENDIXES

        A: Audit Scope and Methodology .....................................................................................11 


Med icare Comp lian ce Review o f University o f Wiscon sin Ho spita l and Clin ic s
(A-05-12-00030 )                                                                                                                                iii
     B: Results of Review by Risk Area ...................................................................................13 


     C: University of Wisconsin Hospital and Clinics Comments............................................14 





Med icare Comp lian ce Review o f University o f Wiscon sin Ho spita l and Clin ic s
(A-05-12-00030 )                                                                                                           iv
                                        INTRODUCTION 


WHY WE DID THIS REVIEW


This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and data analysis techniques, we identified hospital claims that are at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2011, Medicare
paid hospitals $151 billion, which represented 45 percent of all fee-for-service payments;
therefore, the Office of Inspector General (OIG) must provide continual and adequate oversight
of Medicare payments to hospitals.

OBJECTIVE

Our objective was to determine whether University of Wisconsin Hospital and Clinics (the
Hospital) complied with Medicare requirements for billing inpatient and outpatient services on
selected claims.

BACKGROUND

The Medicare Program

Medicare Part A provides inpatient hospital insurance benefits and coverage of extended care
services for patients after hospital discharge, and Medicare Part B provides supplementary
medical insurance for medical and other health services, including coverage of hospital
outpatient services. The Centers for Medicare & Medicaid Services (CMS) administers the
Medicare program.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals.

Hospital Inpatient Prospective Payment System

CMS pays hospital costs at predetermined rates for patient discharges under the inpatient
prospective payment system (IPPS). The rates vary according to the diagnosis-related group
(DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s diagnosis.
The DRG payment is, with certain exceptions, intended to be payment in full to the hospital for
all inpatient costs associated with the beneficiary’s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS), which is effective for
services furnished on or after August 1, 2000, for hospital outpatient services. Under the OPPS,
Medicare pays for hospital outpatient services on a rate-per-service basis that varies according to
the assigned ambulatory payment classification (APC). CMS uses Healthcare Common



Med icare Comp lian ce Review o f University o f Wiscon sin Ho spita l and Clin ic s
(A-05-12-00030 )                                                                                     1
Procedure Coding System (HCPCS) codes and descriptors to identify and group the services
within each APC group.1 All services and items within an APC group are comparable clinically
and require comparable resources. In addition to the basic prospective payment, hospitals may
be eligible for an additional payment, called an outlier payment, when the hospital’s costs exceed
certain thresholds.

Hospital Claims at Risk for Incorrect Billing

Our previous work at other hospitals identified these types of claims at risk for noncompliance:

        inpatient short stays,

        inpatient transfers,

        inpatient and outpatient manufacturer credits for replaced medical devices,

        inpatient claims with payments greater than $150,000,

        inpatient psychiatric facility (IPF) emergency department adjustments,

        inpatient claims billed with high-severity-level DRG codes,

        inpatient hospital-acquired conditions and present-on-admission indicator reporting,

        inpatient and outpatient claims paid in excess of charges,

        outpatient claims billed for Lupron injections,

        outpatient claims billed with modifiers,

        outpatient claims billed with observation services that resulted in outlier payments,

        outpatient claims billed with evaluation and management (E&M) services, and

        outpatient claims with payments greater than $25,000.

For the purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”
We reviewed these risk areas as part of this review.




1
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.

Med icare Comp lian ce Review o f University o f Wiscon sin Ho spita l and Clin ic s
(A-05-12-00030 )                                                                                               2
Medicare Requirements for Hospital Claims and Payments

Medicare payments may not be made for items or services that “are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed
body member” (the Social Security Act (the Act), § 1862(a)(1)(A)). In addition, the Act
precludes payment to any provider of services or other person without information necessary to
determine the amount due the provider (the Act, § 1833(e)).

Federal regulations state that the provider must furnish to the Medicare contractor sufficient
information to determine whether payment is due and the amount of the payment (42 CFR §
424.5(a)(6)).

The Medicare Claims Processing Manual (the Manual) requires providers to complete claims
accurately so that Medicare contractors may process them correctly and promptly (Pub. No. 100-
04, chapter 1, § 80.3.2.2). The Manual states that providers must use HCPCS codes for most
outpatient services (chapter 23, § 20.3).

University of Wisconsin Hospital and Clinics

The Hospital is a nonprofit 566-bed academic medical center located in Madison, Wisconsin,
with 117 outpatient clinics located throughout Wisconsin. Medicare paid the Hospital
approximately $573 million for 28,525 inpatient and 584,270 outpatient claims for services
provided to beneficiaries during CYs 2008 through 2010 based on CMS’s National Claims
History data.

HOW WE CONDUCTED THIS REVIEW

Our audit covered $3,086,985 in Medicare payments to the Hospital for 186 claims that we
judgmentally selected as potentially at risk for billing errors. These 186 claims consisted of 85
inpatient and 101 outpatient claims with dates of service in CYs 2008 through 2010 (audit
period). We focused our review on the risk areas that we had identified as a result of prior OIG
reviews at other hospitals. We evaluated compliance with selected billing requirements and
subjected 20 claims to focused medical review to determine whether the services were medically
necessary for 15 claims and billed correctly for 5 claims. This report focuses on selected risk
areas and does not represent an overall assessment of all claims submitted by the Hospital for
Medicare reimbursement.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

See Appendix A for the details of our scope and methodology.



Med icare Comp lian ce Review o f University o f Wiscon sin Ho spita l and Clin ic s
(A-05-12-00030 )                                                                                 3
                                                  FINDINGS


The Hospital complied with Medicare billing requirements for 87 of the 186 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 99 claims, resulting in net overpayments of $316,172 for
the audit period. Specifically, 51 inpatient claims had billing errors, resulting in net
overpayments of $179,056, and 48 outpatient claims had billing errors, resulting in net
overpayments of $137,116. These errors occurred primarily because the Hospital did not have
adequate controls to prevent the incorrect billing of Medicare claims within the selected risk
areas that contained errors. Appendix B contains the results of our review by risk area.

BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 51 of 85 selected inpatient claims, which resulted in
net overpayments of $179,056.

Incorrectly Billed as Inpatient

Medicare payments may not be made for items or services that “are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed
body member” (the Act, §1862(a)(1)(A)).

For 20 of the 85 selected claims, the Hospital incorrectly billed Medicare Part A for beneficiary
stays that should have been billed as outpatient or outpatient with observation services. Hospital
officials listed human error and the need for additional education as to why key controls did not
prevent these types of errors. As a result of these errors, the Hospital received overpayments of
$140,471.2

Incorrect Discharge Status

Hospitals must bill inpatient discharges as transfers when (1) the patient is readmitted the same
day to another hospital unless the readmission is unrelated to the initial discharge or (2) the
patient’s discharge is assigned to one of the qualifying DRGs and the discharge is to home under
a home health agency’s written plan of care for home health services that begin within 3 days
after the date of discharge (42 CFR §§ 412.4 (b) and (c)). A hospital that transfers an inpatient
under the above circumstances is paid a graduated per diem rate for each day of the patient’s stay
in that hospital, not to exceed the full DRG payment that would have been paid if the patient had
been discharged to another setting (42 CFR § 412.4(f)).



2
 The Hospital may be able to bill Medicare Part B for all services (except for services that specifically require an
outpatient status) that would have been reasonable and necessary had the beneficiary been treated as a hospital
outpatient rather than admitted as an inpatient. We were unable to determine the effect that billing Medicare Part B
would have on the overpayment amount because these services had not been billed or adjudicated by the Medicare
administrative contractor prior to the issuance of our report.

Med icare Comp lian ce Review o f University o f Wiscon sin Ho spita l and Clin ic s
(A-05-12-00030 )                                                                                                  4
For 3 of the 85 selected claims, the Hospital incorrectly billed Medicare for patient discharges
that it should have billed as transfers. For these claims, the Hospital should have coded the
discharge status either as a transfer to an acute care hospital, or to home under a written plan of
care for the provision of home health services. However, the Hospital incorrectly coded the
discharge status to home under a written plan of care for the provision of home health services,
expired, or to home; therefore, the Hospital should have received the per diem payment instead
of the full DRG payment. Hospital officials stated that the incorrect billings occurred because of
human error or the patient changed arranged care after discharge without the Hospital’s control
and knowledge. As a result of these errors, the Hospital received overpayments of $26,794.

Manufacturer Credits for Replaced Medical Devices Not Reported

Federal regulations require reductions in the IPPS payments for the replacement of an implanted
device if (1) the device is replaced without cost to the provider, (2) the provider receives full
credit for the device cost, or (3) the provider receives a credit equal to 50 percent or more of the
device cost (42 CFR § 412.89). The Manual states that to bill correctly for a replacement device
that was provided with a credit, hospitals must code Medicare claims with a combination of
condition code 49 or 50 (which identifies the replacement device) and value code “FD” (which
identifies the amount of the credit or cost reduction received by the hospital for the replaced
device) (chapter 3, § 100.8).

For 2 of the 85 selected claims, the Hospital received a reportable medical device credit for a
replaced medical device from a manufacturer but did not adjust its inpatient claims with the
proper condition and value codes to reduce payment as required. Hospital officials stated that
these errors occurred because the credit memos were not forwarded to the appropriate patient
billing department. As a result of these errors, the Hospital received overpayments of $8,690.

Unsupported Charges Resulting in Incorrect Outlier Payments

The Manual states: “In order to be processed correctly and promptly, a bill must be completed
accurately” (chapter 1, § 80.3.2.2). In addition, it states that a hospital may bill only for services
provided (chapter 3, § 10). CMS provides for additional payment, beyond standard DRG
payments, to a hospital for covered inpatient hospital services furnished to a Medicare
beneficiary (42 CFR § 412.80).

For 3 of the 85 selected claims, the Hospital incorrectly billed Medicare for unsupported charges.
The Hospital incorrectly included charges for services or medications in cost outlier
computations, thus creating overpayments. Hospital officials attributed these overpayments to
human error. As a result of these errors, the Hospital received overpayments of $3,129.




Med icare Comp lian ce Review o f University o f Wiscon sin Ho spita l and Clin ic s
(A-05-12-00030 )                                                                                     5
Incorrect Source-of-Admission Code

CMS increases the Federal per diem rate for the first day of a Medicare beneficiary’s IPF stay to
account for the costs associated with maintaining a qualifying emergency department. CMS
makes this additional payment regardless of whether the beneficiary used emergency department
services; however, the IPF should not receive the additional payment if the beneficiary was
discharged from the acute care section of the same hospital (42 CFR § 412.424 and the Manual,
chapter 3, § 190.6.4). The Manual also states that IPFs report source-of-admission code “D” to
identify patients who have been transferred to the IPF from the same hospital (chapter 3, §
190.6.4.1). An IPF’s proper use of this code is intended to alert the Medicare contractor not to
apply the emergency department adjustment.

For 22 of the 85 selected claims, the Hospital incorrectly coded the source-of-admission for
beneficiaries who were admitted to its IPF upon discharge from its acute care section. Hospital
officials stated that the errors occurred because the claim scrubber edit was not working
properly, and most of the coders misunderstood the admission source code to use when a patient
transferred from their acute care unit to the psychiatric unit. As a result of these errors, the
Hospital received overpayments of $1,965.

Incorrectly Billed Diagnosis-Related Group Code

Medicare payments may not be made for items or services that “are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed
body member” (the Act §1862(a)(1)(A)). In addition, the Manual states: “In order to be
processed correctly and promptly, a bill must be completed accurately” (chapter 1, § 80.3.2.2).

For 1 of the 85 selected claims, the Hospital billed Medicare with an incorrect procedure code,
which resulted in an incorrect DRG code. Hospital officials attributed this error to the technical
and interpretative nature of coding resulting in differences of opinion as to which procedure code
was most appropriate. For this claim, a different procedure code more appropriately specified
the procedure performed. As a result of this error, the Hospital was underpaid $1,993.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 48 of 101 selected outpatient claims, which resulted
in net overpayments of $137,116.

Manufacturer Credits for Replaced Medical Devices Not Reported

Federal regulations require a reduction in the OPPS payment for the replacement of an implanted
device if (1) the device is replaced without cost to the provider or the beneficiary, (2) the
provider receives full credit for the cost of the replaced device, or (3) the provider receives
partial credit equal to or greater than 50 percent of the cost of the replacement device (42 CFR §
419.45(a)). For services furnished on or after January 1, 2007, CMS requires the provider to
report the modifier “FB” and reduced charges on a claim that includes a procedure code for the


Med icare Comp lian ce Review o f University o f Wiscon sin Ho spita l and Clin ic s
(A-05-12-00030 )                                                                                 6
insertion of a replacement device if the provider incurs no cost or receives full credit for the
replaced device.3

For 5 of the 101 selected claims, the Hospital received full credit for replaced devices but did not
report the “FB” modifier and reduced charges on its claims. Hospital officials stated that these
errors occurred because the credit memos were not forwarded to the appropriate patient billing
department. As a result of these errors, the Hospital received overpayments of $53,406.

Incorrectly Billed Healthcare Common Procedure Coding System Code

The Act precludes payment to any provider of services or other person without information
necessary to determine the amount due the provider (the Act, § 1833(e)). The Manual states:
“In order to be processed correctly and promptly, a bill must be completed accurately” (chapter
1, § 80.3.2.2).

For 13 of the 101 selected claims, the Hospital submitted the claims to Medicare with the same
incorrect HCPCS code. Hospital officials attributed this to a new system and human error. As a
result of these errors, the Hospital received overpayments of $40,855.

Incorrectly Billed Lupron Injections and an Insufficiently Supported Medication

Medicare payments may not be made for items or services that “are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed
body member” (the Act §1862(a)(1)(A)). The Act precludes payment to any provider of services
or other person without information necessary to determine the amount due the provider (the
Act, § 1833(e)). The Manual states: “In order to be processed correctly and promptly, a bill
must be completed accurately” (chapter 1, § 80.3.2.2).

The U.S. Food and Drug Administration (FDA) approved Leuprolide acetate (Lupron) for the
treatment of different diagnoses that each have their own national drug code (NDC). CMS
provides a quarterly listing that cross-references the NDC to the HCPCS code. HCPCS code
J9217 is referenced to the NDC approved to treat prostatic cancer while HCPCS code J1950 is
referenced to the NDC approved to treat disorders relating to the uterus.

For 10 of the 101 selected claims, the Hospital incorrectly billed Lupron injections either billing
the incorrect HCPCS code (8 errors), billing it twice (1 error), or billing for Lupron that was not
supported in the medical records (1 error). For the eight claims, the Hospital submitted claims
using the HCPCS code J1950 instead of the correct HCPCS code J9217 for beneficiaries with
prostatic cancer, and billed with either eight or six service units when the correct amount should
have been four or three, respectively. In addition, one of the eight claims included payment for a
different drug which was not supported in the medical records. Although Hospital officials

3 CMS provides guidance on how a provider should report no-cost and reduced-cost devices under the OPPS (CMS
Transmittal 1103, dated November 3, 2006, and the Manual, chapter 4, § 61.3). If the provider receives a
replacement device without cost from the manufacturer, the provider must report a charge of no more than $1 for the
device.

Med icare Comp lian ce Review o f University o f Wiscon sin Ho spita l and Clin ic s
(A-05-12-00030 )                                                                                                 7
believed using HCPCS code J1950 instead of HCPCS code J9217 was a technical error, they
disagreed it was incorrectly billed and claimed it did not result in a different payment. However,
HCPCS code J1950 has a higher Medicare reimbursement than HCPCS code J9217. Hospital
officials attributed the remaining incorrect billings to human error. As a result of these errors,
the Hospital received overpayments of $21,285.

Incorrectly Billed Outpatient Services With Modifiers -59, -50, and -73

The Manual states: “In order to be processed correctly and promptly, a bill must be completed
accurately” (chapter 1, § 80.3.2.2). It states: “The ‘-59’ modifier is used to indicate a distinct
procedural service …. This may represent a different session or patient encounter, different
procedure or surgery, different site, or organ system, separate incision/excision, or separate
injury (or area of injury in extensive injuries)” (chapter 23, § 20.9.1.1). It also states: “Modifier
-50 is used to report bilateral procedures that are performed at the same operative session as a
single line item” (chapter 4, § 20.6.2). The Manual also states: “Modifier -73 is used by the
facility to indicate that a procedure requiring anesthesia was terminated due to extenuating
circumstances or to circumstances that threatened the well-being of the patient after the patient
had been prepared for the procedure (including procedural pre-medication when provided), and
been taken to the room where the procedure was to be performed, but prior to administration of
anesthesia” (chapter 4, § 20.6.4).

For 5 of the 101 selected claims, the Hospital incorrectly billed Medicare for HCPCS codes with
modifiers. Specifically, the Hospital billed with modifier -59 for services that were already
included in the payments for other services billed on the same claim (3 errors), with modifier -50
for a bilateral procedure when only one procedure was allowed for billing (1 error), or with
modifier -73 for a HCPCS code that did not require anesthesia (1 error). Hospital officials
attributed this to human error. As a result of these errors, the Hospital received net
overpayments of $20,319.

Unsupported Charges Resulting in Incorrect Outlier Payments

The Manual states: “Observation services are covered only when provided by the order of a
physician or another individual authorized by State licensure law and hospital staff bylaws to
admit patients to the hospital or to order outpatient services” (chapter 4, § 290.1). The Manual
also states that observation time begins at the time documented in the patient’s medical record,
which coincides with the time that observation care is initiated in accordance with a physician’s
order. The Manual continues, “Hospitals should not report, as observation care, services that are
part of another Part B service…” (chapter 4, § 290.2.2). The Act precludes payment to any
provider of services or other person without information necessary to determine the amount due
the provider (the Act, § 1833(e)). The Manual also states: “In order to be processed correctly
and promptly, a bill must be completed accurately” (chapter 1, § 80.3.2.2).

For 8 of the 101 selected claims, the Hospital incorrectly billed Medicare for unsupported
charges that resulted in incorrect outlier payments. On all eight claims, the Hospital overstated
the hours of observation because it counted time prior to the order for observation care and/or
included observation time for services that were part of another Part B service. For six of these

Med icare Comp lian ce Review o f University o f Wiscon sin Ho spita l and Clin ic s
(A-05-12-00030 )                                                                                    8
eight claims, the Hospital also incorrectly billed Medicare for medications that were not
supported in the medical records. The Hospital attributed this to human error. As a result of
these errors, the Hospital received overpayments of $844.

Incorrectly Billed Evaluation and Management Services

The Manual states that a Medicare contractor pays for an E&M service that is significant,
separately identifiable, and above and beyond the usual preoperative and postoperative work of
the procedure (chapter 12, § 30.6.6(B)).

For 7 of the 101 selected claims, the Hospital incorrectly billed Medicare for E&M services that
were not significant, separately identifiable, and above and beyond the usual preoperative and
postoperative work of the procedure. These services were primarily associated with follow up
visits. Hospital officials stated that these incorrect billings occurred due to human error. As a
result of these errors, the Hospital received overpayments of $407.

                                    RECOMMENDATIONS

We recommend that the Hospital:

   	 refund to the Medicare contractor $316,172, consisting of $179,056 in net overpayments
      for 51 incorrectly billed inpatient claims and $137,116 in net overpayments for 48
      incorrectly billed outpatient claims, and

   	 strengthen controls to ensure full compliance with Medicare requirements.

UNIVERSITY OF WISCONSIN HOSPITAL AND CLINICS COMMENTS

In written comments on our draft report, the Hospital partially agreed with our first
recommendation. The Hospital disagreed with our findings for 10 inpatient claims in which we
stated that the Hospital should have billed the claims as outpatient or outpatient with observation
services. For each of these 10 claims, the Hospital provided a claim-by-claim examination
contending that inpatient status admission for Part A reimbursement was appropriate.

With regard to five outpatient claims billed with manufacturer credits for replaced medical
devices, the Hospital corrected the claims per guidance from NGS, the Medicare contractor for
the Hospital. The Hospital received instruction from NGS to file a credit for these medical
devices using modifier “FC”, and stated NGS’s guidance was contrary to our finding showing
modifier “FB” should be used.

The Hospital agreed with our findings and recommendations for the remaining claims and
addressed our second recommendation by stating that it has reviewed and improved its
educational, internal audit, and compliance programs to address the issues identified.




Med icare Comp lian ce Review o f University o f Wiscon sin Ho spita l and Clin ic s
(A-05-12-00030 )                                                                                    9
The Hospital’s comments are included as Appendix C. We excluded the Hospital’s claim-by-
claim examination from the Hospital’s comments because it included personally identifiable
information.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the Hospital’s comments, we maintain that our findings and recommendations
are valid.

For the 10 inpatient claims that that Hospital should have billed as outpatient or outpatient with
observation services, we used an independent medical review contractor to determine whether
the claims met inpatient medical necessity requirements. The contractor examined all of the
medical records and documentation the Hospital submitted and carefully considered this
information to determine whether it billed the claims according to Medicare requirements.
Based on the contractor’s conclusions, we determined that the 10 inpatient claims should have
been billed as outpatient or outpatient with observation services.

For the five outpatient claims billed with manufacturer credits for replaced medical devices, we
maintain that modifier “FB” should have been used. Modifier “FC” is only used in cases of a
partial credit. For the five claims, the Hospital received either a full credit for the replaced
device or the credit covered the full cost of the new replacement device which are both situations
where modifier “FB” is required.




Med icare Comp lian ce Review o f University o f Wiscon sin Ho spita l and Clin ic s
(A-05-12-00030 )                                                                                     10
                  APPENDIX A: AUDIT SCOPE AND METHODOLOGY 


SCOPE

Our audit covered $3,086,985 in Medicare payments to the Hospital for 186 claims that we
judgmentally selected as potentially at risk for billing errors. These 186 claims consisted of 85
inpatient and 101 outpatient claims with dates of service in CYs 2008 through 2010 (audit
period).

We focused our review on the risk areas that we had identified as a result of prior OIG reviews at
other hospitals. We evaluated compliance with selected billing requirements and subjected 20
claims to focused medical review to determine whether the services were medically necessary
for 15 claims and billed correctly for 5 claims.

We limited our review of the Hospital’s internal controls to those applicable to the inpatient and
outpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. We established reasonable assurance of
the authenticity and accuracy of the data obtained from the National Claims History file, but we
did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

We conducted our fieldwork from January to December 2012.

METHODOLOGY

To accomplish our objective, we:

   	 reviewed applicable Federal laws, regulations, and guidance;

   	 extracted the Hospital’s inpatient and outpatient paid claim data from CMS’s National
      Claims History file for the audit period;

   	 obtained information on known credits for replaced cardiac medical devices from the
      device manufacturers for the audit period;

   	 used computer matching, data mining, and data analysis techniques to identify claims
      potentially at risk for noncompliance with selected Medicare billing requirements;

   	 judgmentally selected 186 claims (85 inpatient and 101 outpatient claims) for detailed
      review;

   	 reviewed available data from CMS’s Common Working File for the selected claims to
      determine whether the claims had been canceled or adjusted;


Med icare Comp lian ce Review o f University o f Wiscon sin Ho spita l and Clin ic s
(A-05-12-00030 )                                                                                    11
   	 reviewed the itemized bills and medical record documentation provided by the Hospital
      to support the selected claims;

   	 requested that the Hospital conduct its own review of the selected claims to determine
      whether the services were billed correctly;

   	 used an independent contractor to determine whether 15 selected claims met medical
      necessity requirements and 5 selected claims met billing requirements;

   	 discussed the incorrectly billed claims with Hospital personnel to determine the 

      underlying causes of noncompliance with Medicare requirements; 


   	 calculated the correct payments for those claims requiring adjustments; and

   	 discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Med icare Comp lian ce Review o f University o f Wiscon sin Ho spita l and Clin ic s
(A-05-12-00030 )                                                                               12
                    APPENDIX B: RESULTS OF REVIEW BY RISK AREA 


                                                                                        Claims
                                                                                         With
                                                                       Value of         Under /       Value of Net
                                                       Selected        Selected          Over-           Over-
                 Risk Area                             Claims          Claims          payments        payments
Inpatient
Short Stays                                                23            $164,769          20              $140,471
Transfers                                                   3              70,225          3                 26,794
Manufacturer Credits for Replaced Medical
                                                           11             270,102           2                   8,690
Devices
Claims With Payments Greater Than
                                                            4             693,501           3                   3,129
$150,000
Psychiatric Facility Emergency Department
                                                           22             234,117          22                   1,965
Adjustments
Claims Billed With High-Severity-Level
                                                            8             358,301           0                          0
Diagnosis-Related Group Codes
Hospital-Acquired Conditions and Present-
                                                            7             194,862           0                          0
on-Admission Indicator Reporting
Claims Paid in Excess of Charges                           7              222,599          1                 (1,993)
  Inpatient Totals                                         85          $2,208,476          51              $179,056

Outpatient
Manufacturer Credits for Replaced Medical
                                                            8            $108,106           5                $53,406
Devices
Claims Paid in Excess of Charges                           21               58,088         13                 40,855
Claims Billed for Lupron Injections                        10               39,124         10                 21,285
Claims Billed With Modifiers                               17               76,451          5                 20,319
Claims Billed With Observation Services
                                                           10               27,663          8                        844
That Resulted in Outlier Payments
Claims Billed With Evaluation and
                                                           20                7,652          7                        407
Management Services
Claims With Payments Greater Than
                                                           15             561,425           0                         0
$25,000
 Outpatient Totals                                        101            $878,509          48              $137,116

  Inpatient and Outpatient Totals                         186          $3,086,985          99              $316,172

Notice: The table above illustrates the results of our review by risk area. In it, we have organized inpatient and
outpatient claims by the risk areas we reviewed. However, we have organized this report’s findings by the types of
billing errors we found at the Hospital. Because we have organized the information differently, the information in
the individual risk areas in this table does not match precisely with this report’s findings.




Med icare Comp lian ce Review o f University o f Wiscon sin Ho spita l and Clin ic s
(A-05-12-00030 )                                                                                                 13
      APPENDIX C: UNIVERSITY OF "VISCONSIN HOSPITAL AND CLINICS
                             COMMENTS



          uwHealth
                  University of Wisconsin 

                  Hospital and Clinics 
                                       September 9. 2013
                  uwhealth.org


          Ms. Sheri L. Fulcher 

          Regional Inspector General for Audit Services 

          Office ofAudit Services, Region V 

          233 North M ichigan, Sui te I 360 

          Chicago, Ill60601 


          RE: 	    DRAFf- Medicare Compliance Review ofthe University of Wisconsin Hospital and
                   Clinics for Calendar Years 2008 through 20 I 0. (A-05-I 2-00030)


          Dear Ms. Fulcher:

          This letter responds to the U.S . Department of Health and Human Services, Office oflnspector
          General (OIG), draft report entitled Medicare Compliance Review ofUniversity ofWisconsin
          Hospilal and Clinics fo r Calendar Years 2008 Through 20 I 0, dated 0810612013. The University
          of Wisconsin Hospital and CHilies (UWHC) appreciates the opportunity to comment on the
          OIG ' s draft report. We are committed to complying with all regulations and standards goveming
          Federal health care programs, and embrace opportunities to improve our educational, internal
          audit and compliance program s to monitor and minimize the risk ofnon-compliant claims .

          UW11C respectfully disagrees with OIG's conclusions regardiJJg ten ofthe 99 claims which OTG
          asserts UWHC was not fully compliant OIG's assetiion with regard to each ofthese ten claims
          hinges on \\~Jether the care provided by UWHC should have been billed as an inpatient
          admission for which reimbursement tmder Medicare Part A was claimed by UWHC, or whether
          the care should have been billed under Medicare Part Bas observation or short stay. A ttachment
          A to this letter is a claim-by-claim examination ofthese ten claims. As Attachment A necessarily
          contains Protected Health Infonnation (PHI), it is not appropriate for publication.

          When one filctors in the proper reimbursement amount for these ten claims, the net overpayment
          amount falls by $74,454 to $241,718. This yields a 7.8% error rate by dollars on OJG 's
          judgmentlli audit of$3,086,985 in Medicare payments to UWHC. UWHC"s total revenue from
          Medicare during the audit period was more than $600,000,000.


             OJG ASSERTED NONCO"MPLIANCE ASSOCI ATED W ITH INPATIENT CLAIMS

          With regard to ten ofthese claims, UW11C respectfillly disagrees with the OIG's assertion that
          UWHC' s billing was not fully compliant. Please see Attachment A for a claim-by-claim
          examination ofthese ten claims. With regard to the balance of the claims in this group, UWHC
          concurs with OIG findings, has made full repayments t:o Medicare, <md v.~ll bill for the
          appropriate Part B reimbursement ($8,505 aggregate).



          UWHealth.org 	                                                                   Page I of3




Medicare Compliance Review of University of Wisconsin Hospital and Clinics
(A-05-12-00030)                                                                                              14
               Corrective Action

               UWHC has investigated these inpatient claims and has instituted con·ective action as 

               described: 


               I . 	 For the two claims for which UWHC received a full credit for replaced medica.! devices
                     from a manufacturer but fa.iled to aqjust our inpatient claims with the proper c<mdition
                     and value codes to reduce payment as required, the cause of the e1Tor was a failure of
                     UWHC sta:fl' to fonvard the credit memos to our billing department. This work -flow
                     failure has been corrected.

               2. 	 For the 22 claims for which UW HC incorrectly coded the source-of-admission for
                    beneficim'ies who were admitted to UWHC' s inpatient psychiatric unit upon discharge
                    from acute care units, the cause of the error was a temporary malftmction ofa claims
                    scrubber edit. 1l1e malftmction was attendant to a larger system upgrade and was rectified
                    some time ago. Subsequent to our examination ofthe 22 claims OIG had identified,
                    UW HC undertook a review of aU Medicare admiss ions to UWHC's inpatient psychiatric
                    tmit b etween 04/01 /06 and 03/23/2012. We reviewed over 1,300 such admissions, and
                    fotmd that these were comectly billed over 98% of the time. After reviewing each one,
                    UWHC found three additional cases, over and above th e 22 found by OIG, with this same
                    en·or. UWHC has corrected all 25 ofthese clain1s.

               3. 	 For the ba.lru1ce ofthe inpatient claims which were not fu lly compliant, the cause was a
                    combination ofhuman error and the inherently subj ective nature of some facets of
                    Medicare reimbursement. UWHC has reviewed ru1.d improved its educational, intemal
                    audit and compliance programs to address the issues identified by OIG and has corrected
                    all of those claims.


          OlG ASSERT EI> NO NCOM PLfA NCf: ASSOCIATEI> WITH OUTPATIENT CLAIMS

          With regard to the claims in tllis group, UWHC concurs with OIG findings and has repaid aU
          claims except as noted below .

          With regard to the seven claims involving Inpatient and Outpatient lvfamifacturer Credits for
          Replacement o[Medical Devices, UWHC has corrected all seven claims per guidru1ce from NGS.
          Medicare has recouped the original payment and paid UWHC a lesser amount. The computation
          of this runount is based on spec ific instructions provided by NGS in response to UWHC' s query
          reg;u·ding how to file a credit for these medical devices. Note that UVlHC's practices were based
          on instruction from NGS to use modifier -F C, not modifier -FB. Contrary toNGS's guidance,
          O IG assm1s UWHC should have used modifier - FB.

          With regard to eight of the ten claims involving Lupron- J 1950 Billed with incorrect D iagnosis,
          UW HC has not repaid the difference b etween the amount billed ru1d lhe proper amount of
          re imbursement ($12, 122 aggregate).




          UWHealtla.org 	                                                                      Page2 of3




Medicare Compliance Review of University of Wisconsin Hospital and Clinics
(A-05-12-00030)                                                                                                  15
               Concctive Action

               UW HC has investigated our processes in connection with these outpatient claims a nd has
               instituted co1Tective action as described:

               1. 	 For the five claims for which UWHC received a full credit for replaced devices but did
                    not re port the "FB" modifier and reduce charges on it~ cla.ims, the cause of the error was
                    a failure of UWHC staff to forward the credit memos to our billing department. This
                    work-flow failure has been corrected.

               2. 	 For the balance ofthe outpatient claims, the cause was a combination ofhuman error and
                    the inherently subjective nature ofsome facets of Medicare reimbursement. UWHC has
                    reviewed and improved its educational, intemal audit and comp lian ce programs to
                    address these issues.


          SUMMARY

          In summary, UWHC respectfully disagrees with the OIG 's findings regarding 10 of the claims.
          See discussion above and on Attachment A regarding these claims.

          Ofthe remaining 89 identified claims, UWHC proactively corrected 80 claims. The only
          remaining ide ntiJi ed claims are the eight Lupron claims refen·ed lo above and one c laim (E-0 1)
          for which UWHC was underpaid ($3,045). As a result, factoring in the aggregate Part 8
          reimbursement for the ten claims originally submitted as inpatient, for which UWHC concurred
          with OIG, th e net remaining amOLmt which UW HC will refund to Medicare is $572.

          1l1c integrity and accuracy of our revenue cycle processes is a top priority. UWHC continues to
          review and improve its ongoing education, intemal audit and compliance programs to achieve
          and maintain a very high rate of compliant claims submission.

          Attachment:
          A. 	 Claim-by -Claim Examination of 10 claims. (Not for Publication)




          Sincerely,



          Daniel J Weissburg, JD, CHC
          Director of Compliance



          cc: 	 Donna Katen-Bahensky, President and CEO
                James Dechene, SVP General Counsel



          UWHealtla.org 	                                                                        Page3 of3




Medicare Compliance Review of University of Wisconsin Hospital and Clinics
(A-05-12-00030)                                                                                                   16
